No.

IN THE
SUPREME COURT OF THE UNITED STATES

CHESTER ft.

STAPLES

— PETITIONER

(Your Name)
VS.
FIFTH CIRCUIT

— RESPONDENTS)

PROOF OF SERVICE
CHESTER ft. STAPLES

, do swear or declare that on this date,
, 20 JLL, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them mid with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

3UNE 25

The names and addresses of those served are as follows:
SUPREME COURT OF THE UNITED STATES,
M

Note to the Clerk of the Court.

WASHINGTON,

D.C.

20543-0001

Thi9 unit is on partial quarantine

due to Covid-19. I have no means to make copies. This is original.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

JUNE 25

,2011

(Signature)
7

INMATE DECLARATION
I, Chester Staples, declare under penalty of perjury that the fore­
going is true and correct and that this petition for writ of certio­
rari was placed in the prison mailing system on June 25,2020.

Signed on this date, June 25,2020.

Chester A. Staples #01853049
Estelle Unit
264 FM 3478
Huntsville, TX 77320

RECEIVED
JUL 1 3 2020
OFFICE OF THE CLERK
SUPREME COURT. US.

INMATE DECLARATION
I, Chester Staples, received from the Clerk's office a notice
that states:
The petition fails to comply with the content requirements of
Rule 14, in that the petition does not contain:
A concise statement of the grounds on which jurisdiction is
invoked. Rule 14.1(e).
The appendix to the petition does not contain the following
documents required by Rule 14.1(i):
The lower court .opinion(s-) must be appended.
I, Chester Staples, have added the opinions of the lower courts
to the appendix of the petition.
The United States Court of Appeals for the Fifth Circuit denied
my request for a Certificate of Appealability on 05/04/2020.
I timely requested a rehearing and was denied on 05/26/2020.
The jurisdiction of this Court is invoked under 28 U.S.C.§1254.

I, Chester Staples, declare under the penalty of perjury that
I have corrected the petition for the writ of Certiorari to the
best of my ability and that the petition was placed in the pri­
son mailing system on:
September
And -sent by first-class U.S.
mail to:
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001

, 2020 .
Chester A. Staples
#01853049
Estelle Unit
264 FM 3478
Huntsville, TX 77320

prose
'
CERTIFICATE OF SERVICE
I ciejitify that I sent today a copy of the corrected petition by
first-class U.S. mail to: The United States Court - of Appeals
for thB Fifth Circuit
600 South Maestri Place
New Orleans, LA. 70130
September

£

, 2020 .

RECEIVED
SEP I 7 2020
.SUPREME7rTnnDCTL^R/

